<html>
<title> - NOMINATION OF HON. MICHAEL P. JACKSON</title>
<body><pre>[Senate Hearing 109-44]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-44

                 NOMINATION OF HON. MICHAEL P. JACKSON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                 ON THE

  NOMINATION OF HON. MICHAEL P. JACKSON TO BE DEPUTY SECRETARY OF THE 
                  U.S. DEPARTMENT OF HOMELAND SECURITY


                               __________

                             MARCH 7, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
20-201                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                    Johanna L. Hardy, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
           Adam Sedgewick, Minority Professional Staff Member
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Levin................................................     3
    Senator Akaka................................................     4
    Senator Coleman..............................................    14
    Senator Pryor................................................    18

                                WITNESS
                         Monday, March 7, 2005

Hon. Michael P. Jackson, to be Deputy Secretary, U.S. Department 
  of Homeland Security:
    Testimony....................................................     8
    Biographical and financial information.......................    35
    Responses to pre-hearing questions...........................    46
    Responses to pre-hearing questions for Mr. Jackson from 
      Senator Lieberman..........................................   130
    Responses to post-hearing questions for Mr. Jackson from:
      Senator Collins............................................   132
      Senator Akaka..............................................   135
      Senator Bennett............................................   140
      Senator Stevens............................................   141

                                APPENDIX

Airforwarders Association, prepared statement....................   142
Air Carriers Association of America (ACAA).......................   144

 
                 NOMINATION OF HON. MICHAEL P. JACKSON

                              ----------                              


                         MONDAY, MARCH 7, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2 p.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Susan M. Collins, 
Chairman of the Committee, presiding.
    Present: Senators Collins, Coleman, Levin, Akaka, and 
Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today, the Committee on Homeland Security and Governmental 
Affairs will consider the nomination of Michael P. Jackson to 
be Deputy Secretary of the Department of Homeland Security.
    Let me begin by noting that I recognize that our nominee 
shares his name with another individual who has been receiving 
a great deal of media attention lately. To anyone thinking 
about cracking a joke along those lines, I would offer two 
observations. First, our nominee had the name first, and 
second, there cannot possibly be a joke that he has not already 
heard a hundred times before. So I think that he would find our 
avoiding the subject to be a real ``thriller.''
    [Laughter and groans.]
    Good. I wanted to see if you would all get that.
    This month marks the second anniversary of DHS operations. 
At this time, we are witnessing the departure of many of the 
Department's first generation of officials. These pioneers of 
Homeland Security--Tom Ridge, Admiral James Loy, Asa 
Hutchinson, and others--stepped forward to serve their Nation 
under extraordinarily difficult and uncertain circumstances. 
All Americans owe them a great debt of gratitude.
    Now, a second generation is stepping forward. This 
transformation began last month with the confirmation of 
Secretary Michael Chertoff. As the unanimous votes in both this 
Committee and in the full Senate indicate, Secretary Chertoff's 
distinguished career in the law has prepared him well for this 
leadership position.
    Similarly, Mr. Jackson's distinguished and varied career 
prepares him well to be Secretary Chertoff's second in command. 
He was Deputy Secretary of Transportation on September 11 and 
thus was on the front lines of the war on terror from the very 
start. He was a leader in the creation of the Transportation 
Security Administration. Prior to, and now after that tour of 
duty, he gained valuable experience in the private sector that 
bears directly on some of the Department of Homeland Security's 
most pressing issues. From the American Trucking Association, 
to Lockheed Martin, to his most recent position as Chief 
Operating Officer of AECom Technology Corporation, Mr. Jackson 
appears to be well qualified for this important post.
    There is no specific job description for the Deputy's 
position, but the individual Mr. Jackson seeks to replace, 
Admiral James Loy, summed up the job qualifications this way in 
a recent interview. He said the job requires vision, action, 
perseverance, and a thick skin.
    Beyond an impressive employment record, Mr. Jackson brings 
with him something that will be invaluable to the Department, a 
reputation as a great manager. In fact, a book about post-
September 11 America titled ``After,'' by Steven Brill, 
describes Mr. Jackson as, ``whip smart when it comes to budget 
and operational details, a real manager who everyone seems to 
think was destined for bigger things.''
    It doesn't get any bigger than helping to protect our 
Nation against terrorism and improving our ability to respond. 
The first generation of Department leaders did a remarkable job 
in laying the foundation, but much remains to be done. The task 
is made even more challenging by the fact that new threats and 
vulnerabilities continue to emerge, even as we still strive to 
address the old ones.
    Since the stand-up of the Department, this Committee has 
held several oversight hearings to explore the status of DHS 
and to help chart its future. The expert testimony we have 
heard has made it clear that the melding of 22 Federal agencies 
with more than 180,000 employees into one cohesive unit remains 
very much a work in progress.
    Within the general status reports are several troubling 
specifics. A lack of strategic planning continues to hamper our 
ability to direct the right resources to the right place at the 
right time. The configuration of the Department itself has yet 
to be refined for maximum efficiency and effectiveness. There 
is a need to define more clearly the authorities and 
responsibilities of the agencies within the Department as well 
as between the Department and other Federal agencies and 
departments.
    On a more specific level, I am very concerned about a 
number of issues. For example, our Nation's seaports remain an 
obvious vulnerability and have not received the resources and 
the priority that they warrant. The delay in implementing the 
Transportation Worker Identification Credential Program is 
inexplicable and unacceptable. And the administration's 
proposed budget would reduce funding for our first responders 
to clearly inadequate levels.
    I am heartened, however, that Mr. Jackson shares at least 
some of these concerns. In a Heritage Foundation lecture 
entitled, ``Securing America's Airports and Waterways,'' Mr. 
Jackson described his vision for a fully integrated approach to 
security across our entire transportation network, air, land, 
and sea. The details of his plan go directly to the core of 
many deficiencies that have been described in our oversight 
hearings. Most heartening is his bottom line. The turf battles 
and bureaucratic inertia that continues to afflict DHS 
internally as well as to affect its relationships with other 
agencies at all levels of government cannot prevent us from 
answering the fundamental question with which he concluded his 
lecture. That question was, ``What works?'' Nothing else makes 
a difference. I think that is a terrific question for us to be 
asking as the Department begins this new stage of its 
existence.
    I do want to say that the Department has accomplished a 
great deal. I have tended to focus in my opening remarks on the 
challenges that will confront the nominee, but certainly, we 
are making progress, and even the Department's staunchest 
critics will admit that progress has been made. At the same 
time, even the Department's fiercest supporters would concede 
that we still have a long ways to go.
    I look forward to discussing what works in greater detail 
today with our nominee. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you very much, Madam Chairman. Let me 
add my welcome to Mr. Jackson.
    This Committee is going to be holding a hearing, as our 
Chairman has said, on Wednesday to ask Secretary Chertoff about 
a number of issues, including the proposed funding for fiscal 
year 2006, but I just want to quickly say that the funding 
request for first responders, with the significant cut that it 
is proposed, as our Chairman has mentioned, is something which 
is deeply troubling to me.
    The allocation last year for our first responder grant 
programs was $1.1 billion. This year, by requiring States and 
localities to allocate no less than 20 percent, or about $200 
million of that 2006 budget request, means that it is going to 
take a significant reduction if this budget is adopted. Rather 
than reducing the amount of grants going to first responders, 
we ought to be increasing those grants as they have proven to 
be inadequate.
    How we allocate Homeland Security resources is just as 
important as the level of funding that we provide, and what we 
need to do is change the way that this funding is distributed 
by allocating funding where the threats and the consequences of 
attacks and the vulnerabilities are the most significant. The 
Homeland Security Department this year does appear to be moving 
towards funding for Homeland Security grant programs based on 
risks, threats, vulnerabilities, and unmet essential 
capabilities, and that is a positive move, certainly an 
improvement over the formula which has been used to allocate 
this funding which has yielded inequitable results.
    Hopefully, with the commitment of the Department, we will 
be able to actually move to a more equitable formula this year, 
and I know that our Chairman has attempted to find various 
formulas, and I commend her on her effort, which will be 
equitable to all of the States and all of our localities. She 
has made a Herculean effort to find that magic formula which 
can obtain a consensus which will both produce greater equity, 
but also make sure that all of our States are given allocations 
which reflect their position as States and their 
responsibilities as States.
    I am also concerned that there is still no dedicated 
funding source to enhance the interoperability of 
communications equipment, even though that remains one of the 
top priorities of our first responders. Secretary Chertoff has 
expressed his support for focused spending and is committed to 
studying that issue further and I would be interested, Mr. 
Jackson, in your ideas on how we can accomplish the goal of 
providing interoperability communications equipment that is so 
desperately needed by our first responders.
    The Chairman has mentioned programs to try to protect our 
ports of entry in a much greater fashion than we have to date. 
I concur with her comments on that. I would only add this, that 
the ports of entry on land, which receive about half of the 
containers, are just as significant as the seaports of entry 
that receive approximately the other half of our containers.
    Just to give you one example, the Ambassador Bridge in 
Detroit, which supports 6.25 million truck crossings, and the 
Blue Water Bridge in Port Huron, Michigan, which supported 
almost two million truck crossings in 2004, are highly 
vulnerable ports of entry and they must be considered along 
with other land ports of entry, along with those seaports which 
have been inadequately funded since such a huge percentage of 
containers come in through those ports, both on land and at the 
seaports.
    So those are some of the questions that I hope you will be 
able to comment on. Again, we congratulate you. I gather your 
family--I wasn't here when our Chairman opened up----
    Chairman Collins. We haven't got to that yet.
    Senator Levin. You haven't got to that yet, all right. She 
always does, so I will allow her to do that without moving into 
that area.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I am 
pleased to join you in welcoming Dr. Michael Jackson, the 
President's nominee to be Deputy Secretary of the Department of 
Homeland Security.
    This is one of the most challenging positions in 
government. I have a longer statement, Madam Chairman, and I 
ask that it be included in the record.
    Chairman Collins. Without objection.
    Senator Akaka. DHS is a work in progress. Some good work 
has been done already by Secretary Ridge and you will have 
picked up where he left off and continue improving it. Now is a 
good time to assess whether or not some areas need changing.
    To bring together these functions, Congress authorized the 
Department and the Office of Personnel Management to create a 
new personnel system which, now finalized, represents a radical 
departure from the existing Federal Civil Service system. Most 
Americans are not aware of this particular aspect, and those 
who are might think of it as one of those inside-the-Beltway 
issues of no real consequence. They are wrong.
    The first line in our national defense is our public 
servants, in or out of uniform. We must ensure that our 
national security workforce has the right tools, the right 
incentives, and the supportive working environment necessary to 
accomplish their mission.
    I believe you appreciate this, Dr. Jackson, but as you 
know, you will be judged by your deeds and not your words. I am 
hearing from Federal workers in Hawaii and throughout the 
Nation that DHS personnel regulations lack the support of 
employees. Dr. Jackson, you and Secretary Chertoff have the 
opportunity to foster a more positive environment so that the 
Department of Homeland Security can meet its mission of making 
America more safe.
    There are several actions that you can take to make this 
happen: One is ensure that the DHS internal labor relations and 
mandatory removal panels include members recommended by 
employees.
    Two, reinstate the current authority of the Merit Systems 
Protection Board to mitigate penalties.
    Three, issue more detailed regulations in the Federal 
Register on the pay-for-performance system.
    And four, provide greater opportunities for employees and 
their union representatives to be involved in agency 
decisionmaking.
    In addition, it is essential to ensure strong whistleblower 
protections for all Federal workers, especially national 
security employees.
    Last week, a bipartisan group of Senators from this 
Committee joined Senator Collins and I to reintroduce 
legislation to strengthen whistleblower protections for Federal 
workers. I ask you to consider whistleblowing as an effective 
tool for management, not a hindrance, and I urge you to extend 
whistleblower protection to all DHS employees.
    Reports that other Federal agencies, such as the Department 
of Defense, paid more bonuses to senior political appointees 
than career senior executives damages morale and heightens 
apprehension of everyone serving in the Federal workforce. I 
hope this does not happen to DHS. Employees should be treated 
fairly and equitably. Dr. Jackson, your first challenge will be 
to convince the men and women who work for you that that is the 
case at DHS.
    Your second challenge will be to provide leadership to the 
DHS workforce, not just a new set of personnel regulations. As 
I mentioned earlier, right employees must have the right tools, 
the right incentives, and the right environment to accomplish 
their mission. And again, you can tell how focused I am on 
this. Chairman Voinovich and I, as Chairman and Ranking Member 
of the Committee on Oversight of Government Management and the 
Federal Workforce intend to focus on this.
    Again, I welcome you to the Committee and I want to welcome 
your family. I think your wife and your daughter are here and 
it is great to see them. I want to thank them for their 
sacrifice for their country in supporting you for this 
position. I hope they will be able to join you in a visit to my 
State of Hawaii. [Laughter.]
    Mr. Jackson. Well, you have opened the door now, Senator. 
[Laughter.]
    Senator Akaka. Sooner, rather than later.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Madam Chairman, I am pleased to join you in welcoming Dr. Michael 
Jackson, the President's nominee to be Deputy Secretary of the 
Department of Homeland Security. This is one of the most challenging 
positions in the government.
    I understand that Secretary Chertoff, who was sworn in 2 weeks ago, 
has already begun a top-to-bottom review of the Department, and I want 
to say that I welcome this review.
    As we all know, the Department was cobbled together from 22 
existing government entities with new functions added. DHS is a work in 
progress, and I agree that now is a good time to assess whether or not 
some areas need changing.
    To bring together these disparate functions, Congress authorized 
the Department and the Office of Personnel Management to create a new 
personnel system, which now finalized, represents a radical departure 
from the existing Federal civil service system.
    Most Americans are not aware of this particular aspect. And, those 
who are, might think of it as one of those inside-the-Beltway issues of 
no real consequence.
    They are wrong.
    The first line in our national defense is our public servants: In 
or out of uniform. We must ensure that our national security workforce 
has the right tools, the right incentives, and a supportive working 
environment necessary to accomplish their mission.
    I believe you appreciate this, Dr. Jackson. But as you know, you 
will be judged by your deeds.
    I am hearing from Federal workers in Hawaii and throughout the 
Nation that the DHS personnel regulations lack the support of 
employees. Moreover, employee unions have filed suit to prevent the 
implementation of these regulations, and even if the suit fails, it is 
indicative of a severely strained labor-management environment.
    Dr. Jackson, you and Secretary Chertoff have the opportunity to 
foster a more positive environment so that the Department of Homeland 
Security can meet its mission of making America more safe.
    There are several actions that you can take to make this happen:

    <bullet>  Ensure that the DHS internal labor relations and 
mandatory removal panels include members recommended by employees;
    <bullet>  Reinstate the current authority of the Merit Systems 
Protection Board to mitigate penalties;
    <bullet>  Issue more detailed regulations in the Federal Register 
on the pay for performance system; and
    <bullet>  Provide greater opportunities for employees and their 
union representatives to be involved in agency decisionmaking.

    In addition, it is essential to ensure strong whistleblower 
protections for all Federal workers, especially national security 
employees.
    Last week, a bipartisan group of Senators from this Committee 
joined Senator Collins and I to reintroduce legislation to strengthen 
whistleblower protections for Federal workers. As you know from your 
role in helping to establish the Transportation Security Administration 
(TSA), Federal baggage screeners do not have full whistleblower rights. 
This Committee supported extending full whistleblower rights to all DHS 
employees during our markup of the DHS bill in 2002. Unfortunately, the 
final legislation did not reflect this intent.
    I ask you to consider whistleblowing as an effective tool for 
management, not a hindrance, and I urge you to extend whistleblower 
protection to all DHS employees. Such action will have an immediate 
impact on employee morale and will help the Department uncover 
mismanagement and security lapses. This is what leadership is all 
about--being able to focus on the goal and not be dragged down by the 
details.
    It is also essential that employees have adequate training on the 
implementation of the new human resources system, particularly on the 
performance management system. We often find that in tight fiscal 
years, training budgets are routinely cut or used to pay for other 
agency priorities. I hope you will be committed to ensuring a strong 
and robust training program for the Department.
    I fear the Administration has been too focused on the details, 
wasting time, expending political capital, hurting the morale of the 
very civil service workforce whose duty is to make America safe.
    Reports that other Federal agencies, such as the Department of 
Defense, paid more bonuses to senior political appointees than career 
Senior Executives damages morale and heightens the apprehension of 
everyone serving in the Federal workforce. I hope this has not happened 
in DHS. Employees should be treated fairly and equitably.
    Dr. Jackson, your first challenge will be to convince the men and 
women who work for you that that is the case of DHS.
    Your second challenge will be to provide leadership to the DHS 
workforce, not just a new set of personnel regulations.
    As I mentioned earlier, employees must have the right tools, the 
right incentives, and the right environment to accomplish their 
mission.
    Again, I welcome you to the Committee, and I welcome your family, 
and I want to thank them for their sacrifice for their country in 
supporting you for this position. And, I hope they will be able to join 
you in a visit to my State of Hawaii sooner rather than later.

    Chairman Collins. I am wondering why you don't invite the 
Senators from Maine and Michigan also to come learn more about 
the challenges in Hawaii.
    Senator Levin. With all our kids and grandkids, too, right? 
[Laughter.]
    Chairman Collins. Mr. Jackson, both of my colleagues have 
alluded to your family members, so I think I will go slightly 
out of order and ask you to introduce them to the Committee 
right now.
    Mr. Jackson. Thank you, Chairman Collins. Well, I have with 
me my wife, Caron, and my daughter, Katherine. As has been 
said, they do make it possible for public service by giving 
such strong support. But DHS is really all about protecting 
families and citizens and with Caron and Katherine, as with 
your families, my family gives a name and a face every day to 
the motives for me wanting to do a job such as I have been 
nominated for, so I am grateful for their support but also 
grateful for how they bring home every day how important it is, 
the work of this Committee and the Department of Homeland 
Security. So thank you for the welcome.
    Chairman Collins. Thank you. Senator Levin and I were just 
remarking that your daughter is beaming---- [Laughter.]
    And I think that she is very proud of her father here 
today, so we welcome you both to the Committee.
    In my opening comments, I gave considerable information 
about Mr. Jackson's background. Let me just add that he also 
served as a pro bono member of the Coast Guard's Integrated 
Deep Water System Navigational Council. I am going to ask you 
later some questions about the deep water program, which I care 
deeply about, but I am very pleased to see that you bring 
experience in that area to the Department, as well.
    Mr. Jackson has filed responses to a financial and 
biographical questionnaire, answered pre-hearing questions 
submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics.\1\
---------------------------------------------------------------------------
    \1\ The biographical and financial information and pre-hearing 
questionnaire appears in the Appendix on page 35.
---------------------------------------------------------------------------
    Without objection, this information will be made a part of 
the hearing record, with the exception of the financial data, 
which are on file and available for public inspection in the 
Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so, Mr. 
Jackson, would you please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Jackson. I do.
    Chairman Collins. Thank you. Mr. Jackson, if you have a 
statement you would like to make, I would ask that you proceed 
at this time.

 TESTIMONY OF HON. MICHAEL P. JACKSON, TO BE DEPUTY SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Jackson. Thank you, Chairman Collins, and Members of 
the Committee, thank you for your warm welcome and for having 
this hearing today for me.
    I am deeply honored to be nominated, and if confirmed, I 
would look forward to working very closely with this Committee 
on the issues that have already been raised and the many others 
that you have the responsibility to oversee at the Department.
    Perhaps it would be helpful, and Madam Chairman, you have 
already been through my history a little bit, so I won't say 
too much, but I will try to compact it with just a brief 
summary of what I have done and a few words about what I would 
bring to this job, if confirmed.
    My professional life has been equally divided in the past 
20 years between public service and private service. In the 
public domain, if confirmed for this position, I would have 
worked for three Presidents in four Presidential terms and for 
five Cabinet Secretaries. I started out with a GS number that 
was definitely in the single digits and have worked through a 
variety of different responsibilities. In the private sector, I 
have been in multiple corporate and trade association jobs that 
are relevant to our work at the Department of Homeland 
Security.
    In both of the last two corporate jobs, and in my DOT job, 
I was the Chief Operating Officer. The COO's job is a job that 
I relish. It is a job for which I bring enthusiasm, and if 
confirmed in this position, it is a position that I would love 
to return to at the Department. That really is the core of the 
Deputy Secretary's job at DHS. It calls for supporting the 
President and the Secretary. It calls for being a strategic 
thinker, yet immersed in the weeds of what you do enough to 
know the practical issues that have to be resolved. It calls 
for being customer-focused. It calls for being a change agent, 
action oriented, and I would say constructively impatient with 
the progress of our mission.
    At DHS, the COO is involved in much work within the 
administration, within other departments, with our State and 
local first responder community, with State and local leaders, 
and certainly in a very immediate and important way with this 
Committee and with other Members of Congress in the work of 
oversight that you have for the Department.
    I have no illusions about the complexity of this job. 
Secretary Chertoff has no illusions about the difficulty of the 
work that we have ahead of us. But I can tell you that the two 
of us most definitely share this conviction. The jobs for which 
we have been nominated are perhaps the two most exciting jobs 
that a person can be offered in this government. We believe 
that the work ahead is so vital. Why do I say this? It is for 
this vitality, it is for the mission, and it is for the people, 
and so perhaps I could say just a brief word about those before 
turning to questions from the Committee.
    About the mission first. The importance of the mission is 
self-evident. The President has given tremendous support for 
this mission. The Congress has a passionate interest in this 
mission, which I acknowledge and which I, frankly, welcome with 
great regard.
    I was on watch, Madam Chairman, as you said, on September 
11 at DOT and that day permanently changed my own make-up, my 
own constitution, my own DNA. After that, I walked away with an 
unquenchable desire to serve the public's effort at trying to 
prevent such a day ever again, in whatever fashion it was, in 
the private sector or the public sector, in something great or 
something small.
    We have already done so much, and I cannot more heartily 
agree with the words that have been expressed here for 
Secretary Ridge and Deputy Secretary Loy and the phenomenal 
colleagues that they brought to this new Department. The work 
that they have accomplished is truly large and truly a legacy 
to the Nation, and I think they would be the first to say that 
there is still so much left to do. We have done much, but we 
can't eliminate vulnerability. We can't eradicate risk. We have 
to keep working at it and stay one step ahead of the ones that 
President Bush called the ``evil ones'' shortly after the 
attack of September 11.
    So whether it is in strengthening transportation 
infrastructure, such a vitally important job, whether it is 
looking at the security associated with chemical plants and 
reducing vulnerability there, with our food supply, or with any 
of the other 17 clusters of critical infrastructure that have 
been outlined in our work in this area, DHS and our allies at 
the State, local, and tribal level must be committed to this 
continuous innovation. We cannot ever stop innovating or 
resting on our laurels.
    That brings me to the second reason why I am attracted to 
this opportunity that I have been nominated for and it is the 
people. In building TSA with our colleagues at the Department 
of Transportation, in working with many of the agencies that 
now constitute DHS, in my work as a private citizen, I have met 
so many thousands of people who share the same passion that 
this Committee brings to this topic for their daily work in 
this area, whether it is a local first responder or a Coastie 
standing watch or a TSA agent trying to get through that 
massive line that they have to sometimes work their way 
through. This is one of the hallmark things that makes working 
with this Department so attractive, is the people, what they 
bring to it, their passion and commitment about it.
    I certainly recognize the mission of this Department is 
more than just counterterrorism work. It is crucial in the 
Department to maintain the complex missions that have been 
assigned to the Department by Congress in the Act which created 
us. So in the Coast Guard, for example, search and rescue 
missions are absolutely vital. Our work in immigration is 
absolutely vital. Our work in responding to natural disasters 
is indispensably vital to what the Department has stood up to 
bear. And I just want to acknowledge at the outset that I 
understand that all of these missions, none of them can be 
dropped. All of them have to be maintained and to work hard.
    I certainly recognize, however, that counterterrorism was 
the core of why we came into being, and I think that by 
continuing to focus on this, with all of the best and brightest 
minds that we can bring and continuing to ask, Madam Chairman, 
the words that you mentioned of mine earlier, ``What Works?'' 
By doing this, we honor the tragic victims of September 11 and 
nothing else but that is what we have to hold dear.
    So vital mission, great people. These are the things that 
are at the top of the list of what animates those of us who 
would propose to work here and work with you. If confirmed in 
this position, I would very much look forward to working 
closely and routinely with this Committee.
    Chairman Collins. Thank you. Mr. Jackson, the Committee 
starts its questioning of every nominee with three standard 
questions. Lately, I have been adding a fourth, and I am going 
to do that in your case, as well.
    First, is there anything you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Jackson. No, there is not.
    Chairman Collins. Second, do you know of anything, personal 
or otherwise, that would in any way prevent you from fully or 
honorably discharging the responsibilities of the office?
    Mr. Jackson. I do not.
    Chairman Collins. Third, do you agree without reservation 
to respond to any reasonable summons to appear and testify 
before any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Jackson. Without reservation, I certainly do.
    Chairman Collins. And the fourth, which I also asked 
Secretary Chertoff, is the result of experience that many 
Members of this Congress, including myself, have had with 
difficulty in securing information from the Department as part 
of our investigative responsibilities. So the fourth question 
is, do you agree to cooperate with the Committee's 
investigations and oversight activities?
    Mr. Jackson. I certainly do. I respect that important role 
in the Committee's work.
    Chairman Collins. Thank you. We will now start a first 
round of questions limited to 6 minutes each, but I want to 
assure my colleagues that we will have a second round, so don't 
be concerned about having to get it all in on the first round.
    Mr. Jackson, the 9/11 Commission set forth a report that 
was very critical of the information sharing within the Federal 
Government, and I want to give you an example of poor 
information sharing that the Committee has encountered as part 
of an ongoing investigation. As you may be aware, the 
Department relies on a system that is called the A file, which 
stands for Alien file, to keep documents and records relating 
to an alien's immigration status. This is a paper-based system 
that appears to be extremely cumbersome and difficult to 
manage.
    For example, our Committee learned that a suspected 
terrorist was mistakenly granted citizenship because his A file 
could not be located at the time the request for citizenship 
was made. More recently, this Committee, as part of its ongoing 
investigation, requested the A file of a known associate of the 
September 11 hijackers and was told that the file was in ``deep 
storage'' and could not be easily located.
    These experiences suggest the need for fundamental reforms 
within the Department in its information sharing, and they are 
very troubling because if individuals who are suspected of 
links with terrorists or of terrorist activities themselves can 
be granted citizenship because the information from the FBI is 
not shared with the Immigration Bureau or vice versa, that is 
putting our country in danger.
    You have considerable private sector experience. You 
understand information systems. What would you do to try to 
improve on the types of antiquated paper-based systems that 
seem to still be far too prevalent within the Department?
    Mr. Jackson. Senator Collins, I think that is an excellent 
question. It is a very important priority for the Department, 
and if confirmed, it is one that I would bring a significant 
amount of focus to in my own efforts.
    I think that the right start has been launched by Secretary 
Chertoff. He has asked for a review of major programs, systems, 
processes, policies, interagency relations. This is both to 
understand our relations inside the Department and with our 
external stakeholders, including our other Federal 
stakeholders. A part of that is to work with our CIO and with 
some other U.S. Government assets and non-U.S. Government 
assets at this cluster of issues about information management 
to come up with an assessment and options for making 
substantial improvements. It is not good enough to say that a 
file is in deep storage and it is something that we should work 
on, and I promise to do so if confirmed and to report back to 
you as you would feel comfortable in having reports on.
    Chairman Collins. I would appreciate that. I think the 
Department, in addition to having some antiquated paper-based 
systems, also has a structural problem because the Chief 
Information Officers of the various component agencies are not 
reporting to the Chief Information Officer of the Department. 
This sets up a structural problem that makes it very difficult 
for leadership to be exerted. So that is an area I would like 
you to look at as you review this whole area.
    Mr. Jackson. Yes, ma'am, I certainly will.
    Chairman Collins. I would now like to turn to the 
Transportation Security Administration, which you obviously 
have tremendous background in since you helped to create and 
stand up that agency. According to a recent GAO report, TSA has 
experienced significant project management problems in 
implementing the Transportation Worker Identification 
Credential. As a result, this has been delayed year after year 
after year. The last target date was August 2004. That now 
apparently has slipped by at least 2 years, and TSA is still in 
the process of testing a prototype.
    I know from my recent visit to Los Angeles that those two 
large ports are using just a driver's license as the means for 
access to the ports, when you have thousands of people having 
access to these two ports only having to show what may be an 
easily counterfeited driver's license.
    What is most troubling to me is during this same time 
period, other secure identification programs have proceeded as 
planned. So it is not like the technology is not there. This 
can be done. For example, the International Labor Organization 
has adopted a biometric identification card standard for the 
world's 1.2 million mariners. More recently, the Commerce 
Secretary approved a new standard for a smart card-based 
identification for all Federal employees and contractors 
associated with Federal facilities in that Department.
    What has gone so wrong with the TWIC program when it 
affects an area that is so important to our security and was 
specifically mandated by the Congress?
    Mr. Jackson. I honestly don't know and I wish I did. I have 
to say it is perhaps impolitic but it is true that I just share 
your frustration in this area and I am perplexed at why we have 
not been able to move this ball further and faster because it 
is important. I would just tell you that I have asked for some 
additional information. This is an area where my sense of 
urgency would be focused at the Department to try to get some 
answers and see where we can go. This is not rocket science. It 
is a case where we should not let perfect be the enemy of 
making a substantial improvement, and I would be committed to 
helping the Department move in that direction and working with 
the Congress to do so.
    Chairman Collins. This is an area that the Committee will 
be following up on----
    Mr. Jackson. Good.
    Chairman Collins [continuing]. So I appreciate your 
commitment. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    The first question that I want to ask you relates to the 
way in which the formula should be structured. That has been, 
of course, a matter of some debate here in terms of how that 
funding goes to the States. But the 9/11 Commission recommended 
that homeland security assistance should be based on assessment 
of risks and vulnerabilities and I am wondering whether you 
agree.
    Mr. Jackson. I do agree with that.
    Senator Levin. Now, the overall funding level that is in 
the administration's budget is significantly reduced when it 
comes to first responder grant programs. As I indicated, last 
year, we allocated $1.1 billion to the program, and this year, 
States and localities are going to be required to allocate at 
least 20 percent of that program, which is a significant 
reduction in that program. I am wondering, how does that 
reflect the huge need that we have for first responder funding? 
How does that reflect the priorities of this Nation to defend 
this homeland?
    Mr. Jackson. Senator, I would agree that supporting first 
responders is an important part of the Department's work and 
mission and I would say that I have not had the benefit of a 
detailed opportunity to drill down into the fiscal year 2006 
proposed budget and would be very grateful to do that, if 
confirmed, and to get back with you in more specifics about the 
grants that you are raising. But I understand the importance of 
what you are raising.
    Senator Levin. Well, we do appreciate that and we will be 
talking to the Secretary more about that, then, on Wednesday.
    The 2006 budget request relative to firefighter grants 
provides that priority shall be given to applications enhancing 
terrorism response capabilities. Now, when the Fire Act was 
passed, I think 5 or 6 years ago, it was passed before 
September 11, obviously. We were trying to provide some support 
to fire departments relative to providing equipment, training, 
and so forth.
    So my question is what your reaction is to that shift. Is 
that something which is necessary, or can we not basically do 
both, provide the first responder grants to our fire 
departments at the same time we are supporting their needs, 
their ongoing needs, I won't say separate and apart, but which 
would have existed even without the September 11----
    Mr. Jackson. Yes, sir. Well, my understanding of the 
Department's programs does identify a first priority on the 
preparation for events of terrorism and other events which we 
are designed by statute to protect against. But there is a zone 
in which investments in that also certainly have some 
significant benefit to the more traditional roles that you 
reference and understanding where the point of reason might be 
for seeing a middle ground on those is an area that I would 
commit to you also to study in more detail.
    I will say this about the structure of the grant programs 
for our State and local partners, is that we are trying in the 
structure of the fiscal year 2006 budget to provide this focus 
on having a threat-based assessment of how to make these 
investments at a local level, and by aggregating some of the 
previously separate programs, we give ourselves some more 
flexibility to look and say, where does the discretion drive 
us? Where does the threat analysis suggest that we go? And so I 
believe that is, as a principled matter, an improvement in the 
structure of the programs. Obviously, we have to have a nuanced 
and sophisticated understanding of what the threat assessment 
means for us and how we should invest in that. It doesn't mean 
that it is just an exclusively population-based approach, but 
it does mean that we take a more sophisticated view of 
understanding risk and how to mitigate it.
    Senator Levin. The Northern border is not only extremely 
long, but it is very open, relatively. Huge numbers of people 
cross that border. Canada is the single largest trading partner 
with the United States. The largest trade link in the world is 
the Ambassador Bridge, which connects Detroit and Windsor, 
Ontario. We have more than 7,000 trucks crossing each day from 
Canada into Michigan.
    Yet when we look at the amount of money which goes to port 
security, it is not only inadequate overall, we only look at, I 
think, 2 to 5 percent of the containers coming into this Nation 
overall as a Nation. But between land ports and seaports, there 
is a huge discrepancy even though, again, about half the 
containers come into the land ports.
    I am wondering what your reaction is to that issue, to that 
problem, and what you would like to see done to accommodate 
that kind of a concern.
    Mr. Jackson. Yes, sir. It is an excellent question. In our 
approach to this, the Department of Homeland Security screens 
all of the traffic moving across and then inspects a smaller 
number, which is indicated by their risk analysis in the 
screening, and I think that without casting any aspersions on 
the terrific work that has been done on both fronts, that, and 
consistent with our idea that this is a constant innovation 
cycle that we have to chase, we can do better on the screening 
and we can do better on the inspecting.
    I have had some experience in the private sector and in the 
public sector at these cross-border trucking issues and I am 
eager to look for process solutions and technology solutions 
that can help us make continued progress here.
    Senator Levin. Thank you, Madam Chairman.
    Mr. Jackson. Yes, sir.
    Chairman Collins. Thank you. Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Madam Chairman. I am looking 
forward to this confirmation----
    Mr. Jackson. Yes, sir.
    Senator Coleman [continuing]. To getting it done. Secretary 
Chertoff is getting lonely over there and he needs as many good 
hands on deck as we can get forward and you are going to be one 
of those, Mr. Jackson.
    Mr. Jackson. Thank you, sir.
    Senator Coleman. Let me follow up, though, on actually two 
concerns raised by my colleagues. First, in regard to the port 
security, I had a chance to be out at Long Beach in L.A. about 
2 weeks ago and about 46 percent of the sea cargo comes through 
there. I am not as concerned about the numbers that are 
screened. I am concerned about the screening process, and I 
understand the rating system.
    But I am concerned on the technology side. The issue of 
radiation portal monitors, the fact is that if you look at the, 
as I understand the system, it doesn't detect neutron 
radiation, the kind of radiation that we need, and we have some 
handheld monitors that get some of that, but can you tell me 
why, help me understand where we are at with radiation portal 
monitors? The concern over threat of any kind of nuclear 
attack----
    Mr. Jackson. Yes, sir.
    Senator Coleman [continuing]. Is obviously enormous and I 
am concerned about where we are on the technology side.
    Mr. Jackson. It has very high consequence, obviously, and 
therefore is a very high priority. In an internal 
administration effort, which I believe the Congress has been 
briefed on, we are proposing to create a so-called DNDO, a 
locus within the Department of Homeland Security for putting in 
place a strategy for counterterrorism related to the nuclear 
issues. An integral part of that strategy is an accelerated 
schedule to do some fundamental research on a variety of 
nuclear detection tools.
    It doesn't mean we can't continue the deployment of 
existing state-of-the-art technology, but I will tell you that 
this has been one of Secretary Chertoff's early briefs. He is 
strongly supportive of the effort and a time table has been 
laid out for implementation of this office and an aggressive 
schedule to work with it.
    Senator Coleman. It is certainly an issue that we will be 
following very closely here.
    Let me also follow up on the question raised by the 
Chairman, and that is the secure I.D.s and the lack of movement 
on the TWIC program. Is there an issue here regarding the--let 
me step back. If you are talking about folks who are 
longshoremen working in L.A. or working in New York or anywhere 
else and we are looking at a secure I.D. program, I assume one 
of the issues is going to be background checks, and I have to 
presume that there may be folks who have been working with 
these folks for long periods of time that may have records that 
will not relate to national security but would certainly cause 
them to have some concern, and perhaps based on other Federal 
standards, may cause us not to have a security concern, which 
should be the major concern, but it may run afoul of some other 
laws or rules or regulations.
    First, is that an issue, and second, is there some 
flexibility? The main thing is national security and we have 
to, I believe as soon as we can, have a better system in place 
of understanding who is handling this cargo, who is coming in. 
Pre-September 11, we were looking at land coming in. Theft was 
an issue. But we are way beyond that today, and I just worry 
about whether there is a flexibility issue here and are we in 
the Federal Government being flexible enough to allow for a 
rapid deployment of this TWIC program or whether we are 
suffering from some inflexibility here.
    Mr. Jackson. We may be suffering from inflexibility that 
needs busting up, and if so, that is something that I would 
like to have a chance to bust at. But I would tell you that my 
understanding of the program is that we have better tools than 
we did in the year or so after September 11 to apply to these 
background investigations. There has been some significant work 
in improving those tools, for example, in the work that TSA did 
with screening airport employees, and we should be taking those 
tools for more rapid and aggressive deployment and I would be 
pleased to work on that work, as well.
    Senator Coleman. Again, here is one where the technology is 
certainly available----
    Mr. Jackson. Yes, sir.
    Senator Coleman [continuing]. To have the kind of smart 
cards that we need. It is a matter of getting them in place.
    Mr. Jackson. The technology to do the background 
investigation itself is, I think, at a stage where we can learn 
new lessons there, as well.
    Senator Coleman. Let me raise one issue about airlines--
Minnesota is the home of Northwest Airlines. There is another 
proposed increase in security fees. Many of us, I am sure, have 
heard our airlines folks coming to us saying, hey, you are 
going to kill us. I don't know the situation with rail, but I 
presume there is not a security fee on Amtrak yet. Am I right 
on that?
    Mr. Jackson. Yes, sir, to my knowledge.
    Senator Coleman. And I presume truckers at this point do 
not have a specific security fee?
    Mr. Jackson. It may depend in some facility entrance fees 
and the like, but there is not a general levy of the sort that 
you are referencing.
    Senator Coleman. It would seem to me that airlines are one 
place where clearly we are focusing. The terrorists know we are 
focusing on it. I just don't want to--and I am not looking for 
reaction on the proposal, but I just want to kind of put on the 
record that a lot of us are deeply concerned about the impact 
of these fees. We understand the importance of security. We are 
working on that. But we seem to be piling it on one industry 
that at this time is in a very precarious situation and we 
shouldn't tax them to death. So I just want to raise that and 
my sense is you will be hearing that from some of my other 
colleagues, too, and I know the Secretary has heard it.
    Mr. Jackson. Yes, sir. I have heard this story since the 
day after September 11, and so I am absolutely----
    Senator Coleman. It seems to be increasing. We have another 
round of proposed fee increases.
    Mr. Jackson. Yes, sir.
    Senator Coleman. I am not talking about where we have been. 
I am talking about where we are going.
    Mr. Jackson. Exactly, and it is a balance. We have tried to 
use user fees because we stood up a Federal workforce to manage 
this, unlike security in some of the other modes of 
transportation. But I recognize it is an area that needs close 
listening.
    Senator Coleman. Thank you, Madam Chairman.
    [The prepared statement of Senator Coleman follows:]

                 PREPARED STATEMENT OF SENATOR COLEMAN

    Madam Chairman, I want to thank you for holding this important 
hearing on the nomination of Michael Jackson to be the Deputy Secretary 
of Homeland Security. I want to join in thanking Michael Jackson for 
appearing this morning before the Committee and I want to personally 
thank you for coming to my office and visiting with me.
    My home State of Minnesota has a wide range of Homeland Security 
interests given that we have an international border with Canada, we 
have two major cities in Minneapolis and St. Paul, we have two nuclear 
reactors in Red Wing and Monticello, and a major port in the city of 
Duluth. Unfortunately, however, Minnesota witnessed an average 48 
percent reduction in the allocation of Federal homeland security 
dollars, including a 71 percent reduction to our urban area security 
initiative alone. Now I don't want to beat a dead horse but I do want 
to reiterate my concerns that you cannot have effective homeland 
security with a lack of continuity. I am very pleased that Secretary 
Chertoff has agreed to work with me on this issue and I would like to 
enlist your help as well so we can avoid this problem next year.
    Turning to another important matter, about a month ago, former 
Attorney General John Ashcroft warned that the gravest threat to the 
U.S. is the possibility that al-Qaeda or its sympathizers could gain 
access to a dirty bomb or a nuclear weapon. In fact, recent studies 
indicate that a nuclear or radiological event at a U.S. port could 
inflict numerous casualties as well as result in an economic impact of 
greater than one trillion dollars to the U.S. economy. I share the 
former Attorney General's concerns and traveled to California in 
February to meet with port officials and get a first hand look at the 
challenges we face.
    Given the enormous stakes involved in the Federal Government's 
response to nuclear terrorism, the Permanent Subcommittee on 
Investigation, which I chair, is working in conjunction with Members of 
the House and Senate in a bicameral and bipartisan fashion and have 
collaborated to review the actions taken by the Department of Homeland 
Security and Customs to safeguard our country from a nuclear attack.
    PSI will focus it initial inquiry into three areas:

    <bullet>  the deployment of radiation portal monitors at our 
Nation's vulnerable ports and borders
    <bullet>  the Container Security Initiative, and
    <bullet>  the Customs Trade Partnership Against Terrorism

    I look forward to working with you on these endeavors to insure 
that our citizens are protected from the threat of nuclear terrorism.

    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman.
    Dr. Jackson, the Emergency Management Performance Grant 
Program is the only source of Federal funding to States and 
localities for all-hazard emergency management preparedness and 
response. Most grant recipients use that money to fund key 
emergency management personnel positions that could not be 
filled otherwise. In fact, 50 percent of Hawaii's civil defense 
staff are funded through these grants.
    I have been told by the National Emergency Management 
Association and officials in Hawaii that OMB wants a 25 percent 
cap on the amount of EMPG funds that can be used for salaries 
and other personnel expenses. If this happens, States and 
localities would lose a significant number of their trained 
staff. This would severely cripple emergency management 
capabilities. Is the information I received about OMB's 
intentions accurate?
    Mr. Jackson. Senator, I have to give you my apology that I 
have not yet had a chance to dive into this level of 
granularity about that part of the program, but I will do so if 
sent to the Department and would be happy to report back to you 
on that.
    Senator Akaka. I would like for you to look at the issue 
and inform this Committee----
    Mr. Jackson. Yes, sir.
    Senator Akaka [continuing]. Before the action is taken to 
cap the personnel funding.
    Dr. Jackson, the National Association of Agriculture 
Employees testified before my Subcommittee that CBP, that is 
Customs and Border Protection, has consciously ignored 
agriculture inspection duties. One of three groups comprising 
CBP are agriculture specialists who were transferred from USDA 
to DHS when DHS was created. I understand there are currently 
800 vacant agriculture specialist positions there, and that is 
of great concern to me.
    In addition, I understand the number of agriculture 
inspections conducted per year has decreased by 3.5 million 
since the DHS took over, even though agricultural imports have 
increased.
    Hawaii is home to more endangered species, as you know, 
than any other State and our economic security depends heavily 
on agriculture inspections being carried out. Will you commit 
to look into this situation and ensure that agricultural 
security at the border is not sacrificed to other priorities?
    Mr. Jackson. Yes, sir, I absolutely will.
    Senator Akaka. The State of Hawaii, Dr. Jackson, is 2,500 
miles away from the West Coast. We don't have any neighboring 
States to call on for assistance, and our eight inhabited 
islands must be self-sufficient. We rely on FEMA's specific 
area office in Honolulu, to coordinate and provide equipment 
for disaster preparedness and response efforts in Hawaii as 
well as the rest of the Pacific.
    I understand that FEMA is considering closing the Pacific 
Area Office this year to cut costs. You will be interested to 
know that I introduced the bill that created that office. Will 
you please look into this issue and report back to me as soon 
as possible?
    Mr. Jackson. Yes, sir, I will.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Jackson. Thank you, Senator.
    Chairman Collins. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman, and thank you for 
being here today. I appreciate, Mr. Jackson, your willingness 
to serve and step into this.
    I have a prepared statement I would like to submit for the 
record.
    [The prepared statement of Senator Pryor follows:]

                  PREPARED STATEMENT OF SENATOR PRYOR

    Thank you Madam Chairman and Senator Lieberman for convening this 
hearing and continuing your bipartisan leadership on this Committee. I 
also would like to thank your Committee staff for its commendable work 
in preparing for our many important hearings such as this session 
today.
    Mr. Jackson, good afternoon and thank you for your years of service 
to your country. I am anticipating an open and in-depth discussion of 
your background and your ideas for securing our country's safety.
    The Department of Homeland Security faces, as part of its challenge 
of protecting America, a reorganization of over 180,000 men and women. 
Such a challenge requires great skill in strategic planning, 
management, and innovation.
    Securing our borders and protecting our infrastructure, while 
preserving our civil liberties are the tasks before you if you are 
confirmed. I look forward to hearing how you would accomplish these 
tasks in the position for which you have been nominated.

    Senator Pryor. The way I see this is you have got a unique 
opportunity and a unique perspective here because you are 
really an outsider at the agency. Let me ask this. It is a 
fairly new agency, a couple of years old or less. From the 
outside looking in, where do you want to focus your energies at 
Homeland Security?
    Mr. Jackson. Well, the issue is that there are many areas 
that need focus and so what we are trying to do at the start, 
Senator, is to begin with an assessment of how to prioritize 
what needs to be done. This is something that Secretary 
Chertoff has announced internally and that we are beginning to 
launch. It will involve looking at probably two dozen clusters 
of like issues, everything ranging from IT programs, such as we 
have discussed earlier, to specific policy areas, and then 
trying to decide, do we have the organization mapped to meet 
the needs that we think are the highest priorities?
    In this process, we have the National Infrastructure 
Protection Plan reaching its conclusion, and that will intimate 
a strategic allocation of resources and illuminate some of the 
key problems, as well. So there is much to do on a policy 
front.
    On an organizational front, we want to take just a quick 
look and see if we can tweak the system and then proceed ahead.
    Senator Pryor. How long do you think it will take you to 
set those priorities? The concern I have is that could be a 
never-ending process and----
    Mr. Jackson. Yes, sir. This is intended to be 2 months, 
possibly three at the most for some complex areas. It is 
intended to be very fast. It certainly mimics a process we used 
at the Department of Transportation to set up the 
Transportation Security Administration, which we established 
some 50 ``go'' teams, who came into being, did their work, made 
their recommendations, put options on the table, and the boss 
made the decision. So this is intended to be something animated 
by a sense of urgency.
    Senator Pryor. Based on your responses to those last two 
questions, can I imply from your answers that you see areas 
that can be improved at DHS?
    Mr. Jackson. Yes, sir, I absolutely do. I will give you one 
example that the Secretary has spoken about publicly and which 
I surely share, as did Secretary Ridge and Deputy Secretary 
Loy. We believe that some work to create a policy shop can have 
a very substantial integrating function within the Department 
to help us accelerate and to cast a department-wide perspective 
on some of the work done throughout the operating components. 
So that is just one example of something that I would say is an 
organizational tool in the tool kit that we can use. There are 
multiple other such issues to unpack.
    Senator Pryor. OK. Let me turn my attention to two specific 
areas that have gotten a lot of attention in this Committee 
over the last couple years. One is the TSA.
    Mr. Jackson. Yes, sir.
    Senator Pryor. I think it is fair to say that Members of 
Congress and Members of the Senate were led to believe that 
consolidation of inspection functions would not only be more 
effective, but also more efficient if they were under TSA, but 
I am not sure I am seeing any cost savings there and I am not 
sure it has lived up to its promise. Do you have a comment on 
that?
    Mr. Jackson. Well, I think TSA is an absolutely vital part 
of the force that we throw against the issues we are worried 
about in counterterrorism. Are they perfect? No. Have they done 
a good job? I think, yes. When you see what we moved from in 
the old system, which was owned by the airlines and which you 
could come and in half a day become a screener with very little 
subsequent oversight, testing, or examination of performance, 
we have made dramatic strides. We have some terrific people out 
there in the field.
    Is it good enough yet? No. Can technology help us make some 
significant improvements? Yes. In the cargo screening, is this 
an area where we need further work? Absolutely, we do.
    I would not want to be a Pollyanna about it, but I wouldn't 
want to cause you to be prematurely anxious about the direction 
that we are taking. There is much to do, for sure, but I can 
tell you there are just literally thousands of people working 
their hearts out to do the right thing, and if we support them 
and give them the right vision, the right tools, the right 
equipment to do their job, they are going to be a phenomenally 
important part of this Department, and they are already.
    Senator Pryor. Great. The last thing I have is that you 
actually, I think, anticipated my question about port security. 
I know Senator Levin asked about it a few moments ago and also 
Chairman Collins over the last couple years--can I use the word 
``grill''? You grilled witnesses on port security? [Laughter.]
    She has had ``discussions''---- [Laughter.]
    About port security issues with witnesses, and justifiably 
so, and I think she is right on that. You have mentioned 
containers with me and with Senator Levin and maybe others, but 
it sounds to me like you are not satisfied with port security.
    Mr. Jackson. I am not satisfied, and you are probably not 
ever going to see me, if I am confirmed in this position, to be 
satisfied and over with any of the progress that we are going 
to make. It is a commitment. It is not just a buzzword to say 
continuous innovation is how we stay ahead of the game.
    That being said, I do think that if you disaggregate the 
container security issues into both land issues, as Senator 
Levin rightly points out, and land interfaces and sea 
interfaces, then you see that there are tools within that for 
further unpacking. If you take the port issues, there is the 
security of the facilities themselves, many of which are 
privately owned, and there is the waterside support that the 
Coast Guard provides and the look at vessels and mariners 
coming in. There is the screening of the containers themselves, 
which CBP has the significant responsibility for.
    So it is a so-called system of systems that we have to put 
in place, both on the land and the marine side, and continue to 
work each of those component parts so that they are a 
interlocking whole that strengthens the system that we have. It 
is a multidimensional puzzle that has to be worked at every 
dimension.
    Senator Pryor. Thank you, Madam Chairman.
    Chairman Collins. Thank you. You will be glad to know, 
Senator Pryor, that today I just asked about port security as 
opposed to grilling the witness.
    Senator Pryor. Grilling is fine with me. I don't have any 
objection to grilling. [Laughter.]
    Chairman Collins. Mr. Jackson, you responded to a question 
from Senator Levin about the formula for Homeland Security 
grants. Just to clarify for the record, do you also agree that 
every State has certain minimum homeland security preparedness 
needs and that population alone does not equate to threat?
    For example, you can have a State with a small population 
but an extensive coastline that is a border State, that is the 
home of a major Navy yard, that was the departure point for two 
of the September 11 hijackers, that also, just for example, 
would have some considerable vulnerabilities.
    Mr. Jackson. Yes, ma'am, I acknowledge that. This is, 
again, something that has to be nuanced and complex. I have 
been to the Portland airport both before and after the 
conversion of TSA to take a look at that departure point and to 
understand its importance to what happened on September 11, and 
I would just say that understanding how to array these skills 
is hard. It is harder in a constrained budget environment. And 
the fact that the administration has the 0.25 figure in the 
budget is an acknowledgement of the fact that we believe that 
there are needs across the Nation while we are making the 
argument for a more nuanced focus on risk-based assessment.
    Chairman Collins. We will be working closely with you on 
that issue.
    I want to talk about something that, in my opinion, would 
fail the question that you have raised about what works, and it 
has to do with a practice of TSA and the airlines in 
designating passengers as selectees. This is an issue that my 
constituents have raised with me. It is not uncommon during the 
winter months for planes to be canceled that are going into the 
State of Maine.
    When that happens, the passengers are diverted to other 
flights. At that point, each and every one of those passengers 
becomes a selectee subject to secondary intrusive screening, 
solely because they had the bad fortune of having their flight 
canceled. There is no way that these passengers could have 
predicted the flight was going to be canceled and manipulated 
the flight to get on a different flight. So it is entirely 
different from a situation where an individual is purchasing a 
ticket on a flight at the last minute.
    First of all, are you aware of that practice, other than 
from my bringing it to your attention, and second, whether or 
not you are aware of that, do you think this works? I mean, 
shouldn't we have a better way of using our scarce resources?
    Mr. Jackson. I would describe that as a blunt instrument 
and not a refined one. I do believe that with--there is a very 
important topic of Secure Flight that the Department has spoken 
to this Committee about before and which itself needs some, I 
think, substantial--some attention. That will be the tool that 
will help us to begin to reduce the hassle factor of multiple 
different dimensions in what passengers go through as they go 
through airports. Patience is still a virtue in this 
environment, but this is an area where I think we can make 
progress. We need to accelerate some tools to do just that.
    As an orientation on what my view is on this, I parallel 
very much what you heard from Secretary Chertoff. I think we 
have to be able to look all the time at what we are doing and 
ask if it is the right thing. In 2002, when Jim Loy came aboard 
as the head of the TSA at that point, he and I launched what we 
called internally and somewhat affectionately the ``stupid rule 
review.'' We asked, what are we doing that we thought we needed 
to do in those hours and days after September 11 that now we 
know better or have different tools we can torque back on? This 
would be an area that we could look at in the Department, I am 
confident.
    Chairman Collins. I would now like to turn to the Coast 
Guard. I mentioned that I was very pleased to see that you had 
served on a council and have experience with the Deepwater 
program. The Coast Guard, since September 11, has done an 
extraordinary job in balancing its homeland security mission 
with its traditional functions, but that increased expectation 
in performance has imposed a tremendous strain on the Coast 
Guard's personnel and its assets. In fact, the Coast Guard is 
spending millions of additional dollars each year just to 
maintain its cutters, its airplanes that are breaking down 
rapidly, creating possible danger to the Coast Guard members 
and also in some cases causing a delay in response.
    I am a strong supporter of the Deepwater program, which 
would recapitalize those assets, and a RAND report issued just 
last year suggested that if we invested now at a quicker rate 
in the Deepwater project, if we accelerated it from a 20-year 
period to a 10-year period, it would generate almost one 
million additional mission hours and it would save $4 billion 
in procurement costs over the life of the project. This strikes 
me as a win-win situation for the taxpayer and for the Coast 
Guard, but it is going to require more of an up-front 
investment to save that enormous amount, $4 billion, in the 
long run.
    What is your position on the acceleration of the Deepwater 
program? Do you think it is possible for us to finance this 
more rapidly to meet the needs of the Coast Guard?
    Mr. Jackson. A couple of points on this important topic. 
One, I am a very strong supporter of the Deepwater program. I 
understand the urgency of taking on these questions.
    Two, you are absolutely right in saying that the operations 
tempo, what the Coast Guard calls the OPTEMPO, has increased 
dramatically after September 11 and changed in its structure so 
that different assets which weren't anticipated to deplete as 
rapidly are facing different configurations in their depletion 
cycle.
    So the Coast Guard has commissioned a rebaselining study, 
as I suspect you are aware of. The Secretary has asked for 30 
days with OMB to review this issue and to make those choices, 
and that is something which, if confirmed, I would love to and 
expect to participate in, to get a chance to make that weighing 
and balancing on what we need and how to configure the assets 
that we are placing against the need.
    On the overall acceleration issue, I have an open mind on 
that issue, but just simply recognize that in constrained 
budget times, accelerating that comes at a cost of other 
programs and so it is a prudential balancing act and we would 
be happy to talk through all that in some detail in conjunction 
with bringing the rebaselining program up here for your review.
    Chairman Collins. Thank you. Senator Levin.
    Senator Levin. Thank you, Madam Chairman.
    In August 2004, the Bureau of Immigration and Customs 
Enforcement inside the Department now established the Northern 
Border Airwing, opened two locations to give some air cover to 
the Northern border. There was a commitment at that time that 
there would be two additional locations opened to serve as the 
base for that Northern Border Airwing. Apparently, however, 
that has not happened, and I am wondering if you are aware of 
that fact, and if so, why.
    Mr. Jackson. No, sir, I was not, until you raised it just 
now, aware of that commitment. I don't believe anyone has told 
me about that. I would be happy to look into it further.
    Senator Levin. And would you get back to us on it?
    Mr. Jackson. Yes, sir. Absolutely.
    Senator Levin. Whether that commitment is going to be 
carried out.
    Our Chairman asked you about cooperation with this 
Committee in terms of providing documents and information. You 
very promptly and strongly indicated that you would do so to 
assist in the oversight of this Committee and you indicated 
that you thought it was, indeed, highly appropriate that this 
Committee engage in oversight. Both with our Chairman Collins 
and Senator Coleman here, who chairs a Subcommittee which is 
engaged in oversight, this Committee and its Subcommittees are 
engaged heavily in oversight, and frankly, we are one of the 
few Committees that engage in oversight to any significant 
degree. As far as I am concerned, that has been the case. We do 
too little oversight in the Congress.
    It is important to me that you not only be available to us 
and your Department be available to us promptly with documents 
and information, but that we get it unvarnished, not screened 
through any political screening process at the White House. 
Some agencies, such as the Securities and Exchange Commission, 
have a requirement that when they are asked to testify in front 
of a Committee of the Congress, that they not seek permission 
from OMB or any other Executive Branch entity and that they do 
not supply their testimony in advance to the White House. They 
rather respond to the invitation and provide testimony without 
that screening process.
    By the way, I may say that we attempted to get language to 
that effect in the Intelligence Reform bill and our Chairman 
and Senator Lieberman were very supportive of the effort, which 
was a bipartisan effort in the Senate to get provisions in the 
Intelligence Reform bill which would require that the 
Intelligence Community--and you have a piece of that 
community--respond to invitations to testify and for 
information to come promptly without screening, and indeed, 
upon request of either the Chairman or Ranking Member of the 
Committee.
    I am wondering what your reaction is to those thoughts, as 
to whether or not you would have any problem--let me put you on 
the spot here a bit--whether you would have any problem if a 
law was passed requiring your agency's intelligence piece to 
promptly appear before this Committee or the Intelligence 
Committee, I assume, and to supply information as I have 
outlined.
    Mr. Jackson. Well, let me unpack that in a couple of ways. 
First, I will start with the principle, which I one hundred 
percent endorse. This Committee has had a unique historical 
role in oversight, which I recognize. We have many committees, 
as you know, that have different oversight and testimony 
responsibilities, but I recognize that this Committee, in 
particular, has a history and a need and a mandate to do this.
    I would, if nominated and confirmed, be eager to try to 
find ways to avoid making this some sort of confrontation or a 
big conflict. I would look for ways, formal and informal, to 
make sure that the Department is providing this Committee with 
the materials and the information they need.
    I found the bipartisan support for building TSA after 
September 11 to be an enormous engine that allowed us to do 
good and we have to do our share of that at the Department, to 
come up here and to work with you and listen to you, and when 
we disagree, we will have to have it out and say that. But I 
think that you would find in me someone very willing to do 
this.
    I would not be able or willing to speculate about a 
position that I might bring to some projected legislation 
without review of the legislation itself, in respect for the 
President's prerogatives in this area.
    Senator Levin. Fair enough. We will look forward to your 
offering your best efforts in that regard. They are important 
to a successful and a bipartisan oversight function.
    Mr. Jackson. Yes, sir.
    Senator Levin. Finally, I made reference to the number of 
border crossings on the Northern border and the land crossings 
before in terms of numbers. I just want to raise one specific 
issue with you, and that has to do with the large number of 
trucks that come into my home State of Michigan every day with 
garbage from Ontario. It is a very sore point in my State and 
there is a lot of deep resentment against Ontario for sending 
its garbage to be landfilled in my State. They have a lot more 
land than Michigan does and a lot more vacant land than 
Michigan does, and to use our landfills has created a real deep 
resentment of a very good neighbor otherwise.
    The question for you goes beyond that and that has to do 
with the security situation, because it is very difficult to 
inspect garbage trucks, to put it mildly, and x-rays do not 
work particularly well because the waste is too dense for an x-
ray machine. And yet we know already from experience that those 
trucks can, indeed, contain drugs and hopefully nothing on the 
biological and chemical weapons side and on the nuclear side. 
But nonetheless, we have a real concern about that.
    I would like to get a commitment from you, given your 
philosophy of ``does it work,'' to either come up with a 
technology which protects our country from those trucks and 
their cargo or stop those trucks. If we can't inspect those 
trucks to make sure that their cargo does not contain the type 
of weapons that I have talked about--chemical, biological, or 
nuclear--I think we may have a radiological capability now, but 
we sure don't have a chemical and biological one--but I would 
like your commitment to give us a prompt report as to whether 
or not we have the technology to make sure that we are 
protected against cargo which does contain those substances, 
and if not, whether or not we are going to stop those trucks 
from coming in on that basis alone, putting aside the 
environmental issue which I started off this question with. Do 
we have that commitment from you?
    Mr. Jackson. Yes, sir. If confirmed, I would be happy to 
dig into this issue and to come back and report what the 
credible options seem to look like and to counsel with the 
Committee about steps that might be taken here.
    Senator Levin. Thanks. I appreciate that. Again, 
congratulations to you and thanks to your family.
    Mr. Jackson. Thank you, sir.
    Chairman Collins. Thank you. Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman.
    I got here just a couple of minutes after we started. I 
didn't get a chance to hear the introductions. I presume that 
is your wife and lovely daughter.
    Mr. Jackson. My wife, Caron, Senator, and my daughter, 
Katherine.
    Senator Coleman. I have a 15-year-old daughter and I would 
hope that Katherine should be very proud of her father. This is 
an extraordinary responsibility that he is raising his hand and 
being willing to undertake and it is really important to 
America. I can see the pride. Little girls can smile with their 
mouth shut. It is amazing.
    Mr. Jackson. They can. But as you know, as a father, the 
dad is probably even more proud of the daughter than the 
daughter is of the dad.
    Senator Coleman. She is doing a wonderful job, just kind of 
sitting and listening.
    One of the responsibilities, one of the challenges you are 
facing, Mr. Jackson, is you are leading an agency, helping lead 
an agency of close to 180,000 people, and one of the challenges 
that you face with that is the responsibility, as my colleague, 
Senator Levin, has talked about, of responding to oversight, 
which is important, and we have gotten the assurances that you 
will respond.
    My question is kind of the other side of that, and that is 
how do you lead, how do you provide leadership to 180,000 
people when the Secretary needs to be up here perhaps a lot. 
You, yourself, need to respond to us. I am a believer in 
managing by walking around.
    Mr. Jackson. Yes, sir.
    Senator Coleman. So how are you and the Secretary sorting 
that out? How are you going to be responsible for the needs of 
oversight, but at the same time provide a very clear direction 
and leadership, hands-on leadership, to the folks who are doing 
this incredibly important function for this country?
    Mr. Jackson. First, let me just start by saying I 
appreciate your being sensitive to that balancing act, and it 
is a balancing act and it takes a phenomenal amount of the 
Department's time to get the Secretary adequately prepared and 
responsibly prepared to visit here with the degree of respect 
that he will always bring to these meetings. Ditto for all the 
rest of the people who would come, as well.
    So I think that one crack at that consultative side is why 
I have stressed the informality of being able to come up, 
visit, talk, and say, here is where we are going, here is what 
we are thinking about, what are you thinking? It is giving you 
a sense of comfort that you know what is going on inside the 
Department. Those don't always have to be in the formal fashion 
or particularly in a hearing fashion, but we can find other 
methods.
    I do believe in managing by walking around and so that 
means you just have to work a little harder in this. But if you 
always hire someone--as a former boss of mine said--who is 
smarter than you are, you can ripple down a group of women and 
men who are committed to managing in this way and who are 
committed to listening to our employees and working with them 
carefully and finding out what works and being impatient about 
the solutions.
    So it is not an easy thing in an organization this large, 
but we are looking at various ways inside this management 
review that the Secretary has launched to accelerate our 
capacity to get decisions over and done with, to track, 
monitor, and execute plans that need to be done, and to work 
with our other Federal colleagues, which is a very large part 
of what we do in addition to working with State and locals. So 
it means getting around a lot. It is a challenge that we will 
put on all of our managers.
    Senator Coleman. I appreciate that, and again, it is an 
extraordinary challenge.
    Let me follow up. A number of us represent Northern border 
communities, the Chairman, the Ranking Member, and myself 
specifically. Some of the experiences they have on the Northern 
border are much different than obviously in Arizona, Texas, or 
California.
    Mr. Jackson. Yes, sir.
    Senator Coleman. Pre-September 11, I think there were about 
300 Border Patrol folks in the Northern area. I think that has 
more than tripled now to over 1,000. But in the Northern 
border, you have to know how to fire a gun at minus-20. It is a 
little bit different than when it is 50, 60, and 70 degrees 
outside. You have to know how to ride a snowmobile. Float 
planes are extensively used.
    I am concerned about--and in addition to the issues which 
are common to my friend and colleague from Hawaii, agricultural 
issues and the whole range of things, on the training side, we 
have had--I have had discussions with Under Secretary 
Hutchinson about a Northern Border Patrol training facility, in 
fact, in International Falls, Minnesota, which hails itself as 
the coldest place in the United States, right on the Canadian 
border, and also, by the way, Port Ranier, which is right next 
to International Falls, one of the busiest crossing areas in 
this country. We have discussed with them the possibility of 
doing a training facility, in fact, not building one, there is 
a community college there that has offered its facilities. But 
my concern is making sure that we have agents who are 
adequately trained to meet the exogenous circumstances that are 
different in the North areas than they are in Southern areas.
    I don't know how familiar you all are with this, but I 
would urge you to kind of bring yourself up to speed and to 
work closely with those of us who do have very specific needs 
in border areas. We just want to make sure folks are well 
trained.
    Mr. Jackson. I share that concern and I would be happy to 
look into that issue in more detail.
    Senator Coleman. I appreciate that. Thank you. And again, I 
hope we can move very quickly on this confirmation.
    Mr. Jackson. Thank you, sir, for your consideration.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Dr. Jackson, for some time, I have called attention to the 
vulnerability of American agriculture to either an accidental 
or intentional contamination by terrorists. This week, I will 
introduce two bills that will improve Federal, State, and local 
governments' ability to prevent and respond to an attack on the 
U.S. food supply. Senator Collins and Senator Levin both raised 
concerns over cooperation with this Committee. I agree with 
them. I have made repeated requests to the Department for a 
briefing on agriculture security activities. Unfortunately, the 
briefing has not yet occurred.
    One, I would ask for your commitment to the critical task 
of securing the United States against an agro-terror attack, 
and two, I would appreciate you looking into my briefing 
requests.
    Mr. Jackson. Yes, sir. I am happy to look into that request 
and to get back to you in a timely fashion. I will tell you 
that I have launched my own request for some briefings, both 
inside the Department and at the Department of Agriculture at a 
very senior level to help me understand these issues better. I 
participated in a USDA-sponsored senior executive tabletop 
exercise while I was Deputy Secretary of Transportation and it 
was an enlightening experience for me and one that made me more 
eager coming into this job, if the Senate is willing, for me to 
look at these issues closely.
    Senator Akaka. Thank you. As you know, TSA recently began 
accepting applications allowing airports to revert back to 
contract screeners. I am concerned that the DHS IG has found 
widespread security lapses in airport screening. I am also 
concerned about the allegations made in a recent lawsuit by a 
former contract employee at the San Francisco International 
Airport. This former employee claims there were nonexistent 
employees on the payroll, non-functioning security equipment, 
and attempts to thwart government auditors. What will you do to 
ensure that DHS has effective contract management and oversight 
of private screening forces?
    Mr. Jackson. Well, I became aware of this particular issue 
through reading a news article and have asked for some 
additional information on the specifics of that set of 
allegations. I am familiar with the design and was very much 
involved in the design of the five pilot test programs at San 
Francisco and other four airports around the country. I am 
eager to dig in and understand the result of those, since I was 
there at the launch but haven't seen the landing. I believe in 
principle that a program can be designed that allows both 
public and private screening services, but I am inflexible as 
to the performance and the outcome and the accountability that 
would have to be put in place, not only for private screening, 
but for us, as well.
    So I am eager to dig into this. I understand it is an area 
that Dave Stone, the TSA Assistant Secretary, has told me they 
are doing some considerable measurement work on. So I would 
like the chance to explore those metrics and to work with him 
and his team on good performance.
    Senator Akaka. Thank you for that response. The U.S. 
Immigration and Customs Enforcement (ICE) has had serious 
financial management problems, resulting in a hiring freeze and 
spending restrictions. Last year, DHS asked to reprogram $300 
million to make up for a budget shortfall at ICE. Last fall, we 
were assured that ICE had its financial affairs in order, yet 
last week, we learned that DHS plans another reprogramming 
request for an additional $280 million this year.
    ICE has a critical mission of preventing terrorist attacks 
by targeting people, money, and materials that support 
terrorists. My question to you is what do you intend to do to 
ensure that these financial shortfalls do not impact ICE's 
ability to fulfill its mission?
    Mr. Jackson. Senator, I understand that in the first year 
of DHS's existence, that ICE was a donor to other parts of the 
Department to help during that first year stand up and meet 
needs within the Department. In the last 2 years, last year and 
this fiscal year, they have been a recipient of funds from 
other departments.
    The Secretary was briefed in his first week on this 
potential reprogramming request and was told by the Department 
that they believe that the fiscal year 2006 budget will provide 
a stabilized base and that this is the last of these problems. 
I believe I would take a page from Ronald Reagan on that and 
say, trust but verify. I would like to dig into the financial 
performance and see for myself what I think.
    But I believe that one of the things that ICE is suffering 
from is insufficient financial controls and IT systems to 
understand their budget and to project appropriately. That is 
also an area where the Department is bringing assets to try to 
seek greater performance. It is an area which I would be 
interested in all across the Department, as well. So hopefully, 
we will see an end to this.
    Senator Akaka. Thank you very much, Madam Chairman. I thank 
you very much for your responses and I want to wish you and 
Mrs. Jackson and Katherine well in your future and look forward 
to working with you.
    Mr. Jackson. Thank you so very much. I am grateful for 
that.
    Chairman Collins. Thank you.
    Mr. Jackson, you will be glad to learn that this is the 
final round of questions, but I am trying to figure out how I 
am going to raise 6 issues with you in six minutes, but I will 
do my best.
    Senator Akaka. Madam Chairman, I have other questions that 
I will submit for the record.
    Chairman Collins. Without objection, and I am certain some 
of my questions will make it into the record as well as Senator 
Coleman's. We will ask that the record remain open until 10 
a.m. tomorrow morning for the submission of any materials and 
questions and responses.
    I want to follow up on the issue just raised by the Senator 
from Hawaii about some of the budget problems with the 
Immigration and Customs Enforcement Bureau, because those 
concern me, as well. As you know, the CSIS-RAND study recently 
recommended, partially to solve some of those problems, a 
merger of Customs and Border Protection with ICE. When I have 
talked to law enforcement officials, whether at the State, 
Federal, or local level, they have been very enthusiastic about 
the prospect of this merger. On the other hand, former Under 
Secretary Asa Hutchinson has a contrary view that he has 
expressed to me and he has told me he thinks that it would be a 
big mistake to merge the two Bureaus.
    I am not going to ask you to take a position on the merger 
today since obviously it requires a great deal of analysis and 
care, but I would ask you to take a close look at the pros and 
cons of merging these two Bureaus and to report back to the 
Committee with your findings and recommendations within a 
reasonable period of time. I anticipate that the Committee will 
do a reauthorization bill. It may not be next year until we do 
it, but we are putting together the pieces through our hearings 
this year. So will you commit to taking a look at that and 
giving us your thoughts after a reasonable period?
    Mr. Jackson. Yes, I absolutely will. It is an issue that is 
already on my radar screen.
    Chairman Collins. Thank you. Another issue that is of 
concern to many of the Members of this Committee, including 
myself, is the recent shortage of H2-B visas. In a State like 
Maine, which has a huge peak in the summer and fall months in 
the workforce needed for the hospitality industry, it has been 
a real problem that the Department has reached the statuary cap 
on H2-B visas within the first couple of months of the fiscal 
year. In fact, I think it was reached in late January this 
year. That puts areas of the country like New England at a 
competitive disadvantage because our tourism season is later 
than Florida's or, for example, the ski areas in the West.
    I want to emphasize that these are just temporary, seasonal 
workers who return to their home countries and employers can 
only apply for these temporary workers if they certify that 
there are no local American workers available for the jobs. 
Indeed, a very important safeguard against abusing the system 
is that the State of Maine, or any other State, has to certify 
that advertising has taken place and that workers are not 
available.
    Would you commit to exploring administrative solutions that 
would allocate the visas throughout the year, perhaps by 
holding back some until later in the year, or at least doing it 
by quarters or some other means, so that we could eliminate 
this regional inequity that now hurts the tourism and other 
businesses that need these workers for a limited period of time 
in my State and other New England States?
    Mr. Jackson. Yes, Madam Chairman, I would make that 
commitment, and I understand--I have been told that this is an 
issue that we have struggled with and I think reasonable 
solutions are something that we should absolutely continue to 
press for and I will take that attitude to looking at the 
issue.
    Chairman Collins. I would note that there is some urgency 
associated with this issue for those of us who have employers 
whose small businesses will be adversely affected if they can't 
rely on these workers. Before you know it, the high season will 
be here. So I hope you will make it a priority to work with us 
on that.
    Mr. Jackson. I will.
    Chairman Collins. I know this is of interest to Minnesota, 
to Michigan, to many other States, as well, but we in New 
England, because of when our tourism season is, are hit 
particularly hard, and that is why there has been bipartisan 
concern over this issue.
    Mr. Jackson. Yes, ma'am. I recognize the complexity of it 
and I will be happy to look at it.
    Chairman Collins. Thank you. One of the challenges that the 
Federal Government faces in homeland security is protecting our 
critical infrastructure. But according to most estimates, 85 
percent of our Nation's critical infrastructure is owned by the 
private sector. It is not government-owned.
    One of our witnesses, Richard Falkenrath, in a hearing that 
we held in January, pointed to this need, particularly with 
relation to the chemical industry and the need to secure our 
chemical facilities. In fact, he identified securing our 
chemical facilities as one of the greatest uncompleted tasks of 
the new Department.
    What would you do to encourage more cooperation with the 
private sector, and do you believe that we need to develop some 
chemical security legislation to address this issue?
    Mr. Jackson. After September 11, I met with the Chlorine 
Institute, to give you just one example, in my capacity as 
Deputy Secretary at DOT, and there was a case of a private 
trade association that worked very closely with a relatively 
compact and small number of the manufacturers of this 
particular chemical to put in place what I would consider some 
very meaningful and strong measures. Perfect? I couldn't say 
they were perfect, but were they a substantial improvement? 
Yes, very much so. I had the same conversations with the 
railroad industry that moves these tank cars.
    I think that we can do a lot by the appropriate 
consultations with the private sector. When asked a question 
similar to this in his confirmation hearing, Secretary Chertoff 
mentioned that the President himself has said that in areas 
where we do not feel that we can reach the right level of 
security by a voluntary effort, that we should be or we would 
be open to considering regulation in this area.
    So I think my first choice would be to see how much we can 
get done in a voluntary motion, being patient with that, and 
continue to reassess that, but there are a lot of good-willed 
people out there that want to try to crack these issues with 
us. If regulation is necessary, so be it. We move in that 
direction. If legislation is the only way to proceed, then I 
think that we would be happy to counsel up here and make such 
an assessment with you.
    Chairman Collins. What I have found in recent months is a 
real evolution in the approach taken by the chemical industry 
to the point where now they are asking for Federal legislation 
or regulation because they are having to deal with too many 
different State systems that is making it very difficult for 
companies with operations in more than one State. So this is an 
issue that the Committee does intend to pursue this year and we 
look forward to working closely with you and getting the advice 
and guidance from the Department.
    Mr. Jackson. Good. And I should say on this one, just to 
be--my general point about how to tackle these issues is true. 
I have not made, since being nominated, an independent study or 
had significant conversations in the Department about the 
chemical industry per se and what might be needed there. It 
certainly, as with Rich Falkenrath, it is on Michael Jackson's 
radar screen, as well.
    Chairman Collins. Thank you. The final comment that I want 
to make today echoes some of the concerns that Senator Akaka 
made in his opening statement, and that is the Department is 
embarking on a new personnel system and the system may well end 
up being a template for future legislative reforms of the Civil 
Service system. It is absolutely essential that there be 
adequate training, consultation with employees and with their 
representatives for this new system to be a success. The 
Department has taken a great deal of time and care in the 
consultative process, but a lot of challenges remain.
    I am sure you would agree with me that the employees of the 
Department are your greatest asset, and if they become 
alienated through this process, not only will the new personnel 
system fail, but also the Department will not be successful in 
carrying out its absolutely critical mission.
    So I just want to end my questioning today by encouraging 
you to continue to work in a collaborative way to ensure 
employee acceptance, participation, and the success of the 
system, and I think training of managers to do fair personnel 
evaluations, for example, is going to be absolutely critical to 
the success of the new system.
    Mr. Jackson. I welcome your comments and I agree with your 
perspective on this, very much so.
    Chairman Collins. Thank you. Well, knowing that you have a 
reputation as a great manager, I am certain you know that 
running a Department requires the full participation of your 
employees and I look forward to working with you on that, as 
well.
    Mr. Jackson. And those employees deserve the support of 
their political and career leadership and we will work to make 
sure that they have that.
    Chairman Collins. They do, indeed, and it is the civil 
servants who are there day in and day out who are making the 
decisions that are literally life and death decisions for the 
security of our country. I know you value their contributions, 
as do I and the other Members of this Committee.
    Mr. Jackson. Very much so.
    Chairman Collins. I do want to thank you for agreeing to 
make all these issues a priority and for your participation 
today.
    Senator Coleman.
    Senator Coleman. Thank you, Madam Chairman. Let me first 
off associate myself with the last series of comments by the 
Chairman concerning the importance of employees. I also 
appreciate your willingness to focus on this, and also her 
comments about H2-B visas.
    In Minnesota, we have the same problem, a somewhat 
different circumstance. We have a company, Marvin Windows. It 
is one of the most successful window manufacturers in the 
country. They are right up in Warroad, Minnesota. They have a 
lot of college kids that come work during the summer to fill 
the assembly lines. And by the way, they employ people from a 
broad geographic area. But when these kids leave, they have got 
production lines going and they need folks to fill them and 
they cannot get folks on H2-B visas. And so the result of this 
is potentially shutting down lines that will cost American 
jobs. If we had the ability to fill the lines, they are going 
to keep the jobs. So this is a very important issue and I 
appreciate the Chairman raising it and your response.
    Just one last area to raise. I also have the opportunity to 
serve on the Foreign Relations Committee, and during the 
confirmation hearing of Secretary Rice, she noted that each and 
every member of the committee asked her about the issue of 
student visas, international students. America for years 
championed itself as being in the preeminent position of folks 
from around the world who wanted to come here and study. In a 
post-September 11 world, because of legitimate concerns, the 
system got tight. It tightened. Two of the hijackers, two of 
the terrorists apparently had student visas, but no one checked 
to see if they were students.
    The concern that many of us had, and again, this was the 
one item that Secretary Rice said every single member of the 
committee raised this issue, was that in responding to past 
sins and mistakes that we have really tightened the system so 
much that today, I believe we have an over 30 percent decline 
in the number of international graduate students.
    We have the experience now that I am sure all of my 
colleagues have, and they will speak to a foreign minister or a 
defense secretary or a vice president or president from another 
country. Invariably, they studied or their family studied and 
they have an American experience. In 20 years from now, that is 
not going to be the case because of policies that are in place 
today, and that is a concern. Certainly, it is also an economic 
issue for our colleges that are losing tuition dollars. It is a 
competitiveness issue for American business.
    Homeland Security does have a role in this process. You 
manage the SEVIS system, which keeps track of students. You 
make interagency decisions about who and who is not a security 
threat and participate in the developing of policy for that. So 
what I am looking for here is just raising this issue----
    Mr. Jackson. Yes.
    Senator Coleman [continuing]. And hoping that you will, and 
asking your pledge to work with us to restoring the United 
States' role in international student education. I think we can 
do it in a way that is consistent with meeting the demands of 
national security, but at the same time doing better than we 
are doing today in understanding the economic and security 
implications of both today and tomorrow by some of the policies 
and procedures that are in place today.
    Mr. Jackson. It is an important balance and it is one that 
I would focus on. I understand and 100 percent agree with you 
that it is one of the marvelous things about our country, that 
we have, as the President spoke in his inaugural address, 
shared our experience with democracy around the globe by these 
types of tools. I know that the needs in this century are great 
in this regard and so we have to have something that is 
reasonable.
    Senator Coleman. The sense I get is that the word went out, 
slow it up, slow it up. What I am looking for here is, again, 
focus on national security but using common sense----
    Mr. Jackson. And maybe some new tools to help make it work 
better, smarter, and faster.
    Senator Coleman. I look forward to working with you on that 
issue.
    Mr. Jackson. I would, too, Senator Coleman.
    Senator Coleman. Again, I look forward to your 
confirmation.
    Mr. Jackson. Thank you, sir, and thank you for your help 
today.
    Senator Coleman. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Mr. Jackson, I think Senator Coleman's final question 
really sums up what this is all about, which is tightening 
security but doing so in a way that does not interfere unduly 
with the free flow of legitimate commerce and legitimate people 
across our borders. That is a constant tension.
    We had a real problem in Northern Maine in some of the 
remote communities where services are on the Canadian side of 
the border. People live on the American side. Border crossings 
are only open certain hours. The post-September 11 world has 
changed everything for those of us particularly who live in 
border States and I think we have to constantly be figuring out 
how we can do this better and smarter to make sure that we are 
not infringing on civil liberties, privacy rights, legitimate 
commerce, and legitimate travel, and yet at the same time 
tightening the porous borders that allowed the terrorists on 
September 11 to enter our country so freely and so many times. 
That is the challenge, among many, that you face, and we look 
forward to working with you on that.
    I want to also echo my colleagues in thanking you very much 
for being willing to leave your private sector job and to come 
back into government. That is quite a sacrifice, but as you 
said in your opening remarks, there are few jobs in Washington 
that are as important as yours and Secretary Chertoff. So we 
are grateful for your willingness to serve. I am going to try 
to move your nomination through the Committee as quickly as 
possible this week, and I very much appreciate your being here 
today and your cooperation with the Committee process.
    Mr. Jackson. Thank you, Madam Chairman, for your kindness 
and your consideration in this.
    Chairman Collins. The hearing record will remain open until 
10 a.m. tomorrow morning.
    I want to thank the staff for their work, the Department 
for its cooperation, and your family for being here. Your 
daughter listened more closely than anyone else in the room.
    This hearing is now adjourned.
    Mr. Jackson. Thank you.
    [Whereupon, at 3:48 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0201.001

[GRAPHIC] [TIFF OMITTED] T0201.002

[GRAPHIC] [TIFF OMITTED] T0201.003

[GRAPHIC] [TIFF OMITTED] T0201.004

[GRAPHIC] [TIFF OMITTED] T0201.005

[GRAPHIC] [TIFF OMITTED] T0201.006

[GRAPHIC] [TIFF OMITTED] T0201.007

[GRAPHIC] [TIFF OMITTED] T0201.008

[GRAPHIC] [TIFF OMITTED] T0201.009

[GRAPHIC] [TIFF OMITTED] T0201.010

[GRAPHIC] [TIFF OMITTED] T0201.011

[GRAPHIC] [TIFF OMITTED] T0201.012

[GRAPHIC] [TIFF OMITTED] T0201.013

[GRAPHIC] [TIFF OMITTED] T0201.014

[GRAPHIC] [TIFF OMITTED] T0201.015

[GRAPHIC] [TIFF OMITTED] T0201.016

[GRAPHIC] [TIFF OMITTED] T0201.017

[GRAPHIC] [TIFF OMITTED] T0201.018

[GRAPHIC] [TIFF OMITTED] T0201.019

[GRAPHIC] [TIFF OMITTED] T0201.020

[GRAPHIC] [TIFF OMITTED] T0201.021

[GRAPHIC] [TIFF OMITTED] T0201.022

[GRAPHIC] [TIFF OMITTED] T0201.023

[GRAPHIC] [TIFF OMITTED] T0201.024

[GRAPHIC] [TIFF OMITTED] T0201.025

[GRAPHIC] [TIFF OMITTED] T0201.026

[GRAPHIC] [TIFF OMITTED] T0201.027

[GRAPHIC] [TIFF OMITTED] T0201.028

[GRAPHIC] [TIFF OMITTED] T0201.029

[GRAPHIC] [TIFF OMITTED] T0201.030

[GRAPHIC] [TIFF OMITTED] T0201.031

[GRAPHIC] [TIFF OMITTED] T0201.032

[GRAPHIC] [TIFF OMITTED] T0201.033

[GRAPHIC] [TIFF OMITTED] T0201.034

[GRAPHIC] [TIFF OMITTED] T0201.035

[GRAPHIC] [TIFF OMITTED] T0201.036

[GRAPHIC] [TIFF OMITTED] T0201.037

[GRAPHIC] [TIFF OMITTED] T0201.038

[GRAPHIC] [TIFF OMITTED] T0201.039

[GRAPHIC] [TIFF OMITTED] T0201.040

[GRAPHIC] [TIFF OMITTED] T0201.041

[GRAPHIC] [TIFF OMITTED] T0201.042

[GRAPHIC] [TIFF OMITTED] T0201.043

[GRAPHIC] [TIFF OMITTED] T0201.044

[GRAPHIC] [TIFF OMITTED] T0201.045

[GRAPHIC] [TIFF OMITTED] T0201.046

[GRAPHIC] [TIFF OMITTED] T0201.047

[GRAPHIC] [TIFF OMITTED] T0201.048

[GRAPHIC] [TIFF OMITTED] T0201.049

[GRAPHIC] [TIFF OMITTED] T0201.050

[GRAPHIC] [TIFF OMITTED] T0201.051

[GRAPHIC] [TIFF OMITTED] T0201.052

[GRAPHIC] [TIFF OMITTED] T0201.053

[GRAPHIC] [TIFF OMITTED] T0201.054

[GRAPHIC] [TIFF OMITTED] T0201.055

[GRAPHIC] [TIFF OMITTED] T0201.056

[GRAPHIC] [TIFF OMITTED] T0201.057

[GRAPHIC] [TIFF OMITTED] T0201.058

[GRAPHIC] [TIFF OMITTED] T0201.059

[GRAPHIC] [TIFF OMITTED] T0201.060

[GRAPHIC] [TIFF OMITTED] T0201.061

[GRAPHIC] [TIFF OMITTED] T0201.062

[GRAPHIC] [TIFF OMITTED] T0201.063

[GRAPHIC] [TIFF OMITTED] T0201.064

[GRAPHIC] [TIFF OMITTED] T0201.065

[GRAPHIC] [TIFF OMITTED] T0201.066

[GRAPHIC] [TIFF OMITTED] T0201.067

[GRAPHIC] [TIFF OMITTED] T0201.068

[GRAPHIC] [TIFF OMITTED] T0201.069

[GRAPHIC] [TIFF OMITTED] T0201.070

[GRAPHIC] [TIFF OMITTED] T0201.071

[GRAPHIC] [TIFF OMITTED] T0201.072

[GRAPHIC] [TIFF OMITTED] T0201.073

[GRAPHIC] [TIFF OMITTED] T0201.074

[GRAPHIC] [TIFF OMITTED] T0201.075

[GRAPHIC] [TIFF OMITTED] T0201.076

[GRAPHIC] [TIFF OMITTED] T0201.077

[GRAPHIC] [TIFF OMITTED] T0201.078

[GRAPHIC] [TIFF OMITTED] T0201.079

[GRAPHIC] [TIFF OMITTED] T0201.080

[GRAPHIC] [TIFF OMITTED] T0201.081

[GRAPHIC] [TIFF OMITTED] T0201.082

[GRAPHIC] [TIFF OMITTED] T0201.083

[GRAPHIC] [TIFF OMITTED] T0201.084

[GRAPHIC] [TIFF OMITTED] T0201.085

[GRAPHIC] [TIFF OMITTED] T0201.086

[GRAPHIC] [TIFF OMITTED] T0201.087

[GRAPHIC] [TIFF OMITTED] T0201.088

[GRAPHIC] [TIFF OMITTED] T0201.089

[GRAPHIC] [TIFF OMITTED] T0201.090

[GRAPHIC] [TIFF OMITTED] T0201.091

[GRAPHIC] [TIFF OMITTED] T0201.092

[GRAPHIC] [TIFF OMITTED] T0201.093

[GRAPHIC] [TIFF OMITTED] T0201.094

[GRAPHIC] [TIFF OMITTED] T0201.095

[GRAPHIC] [TIFF OMITTED] T0201.096

[GRAPHIC] [TIFF OMITTED] T0201.097

[GRAPHIC] [TIFF OMITTED] T0201.098

[GRAPHIC] [TIFF OMITTED] T0201.099

[GRAPHIC] [TIFF OMITTED] T0201.100

[GRAPHIC] [TIFF OMITTED] T0201.101

[GRAPHIC] [TIFF OMITTED] T0201.102

[GRAPHIC] [TIFF OMITTED] T0201.103

[GRAPHIC] [TIFF OMITTED] T0201.104

[GRAPHIC] [TIFF OMITTED] T0201.105

[GRAPHIC] [TIFF OMITTED] T0201.106

[GRAPHIC] [TIFF OMITTED] T0201.107

[GRAPHIC] [TIFF OMITTED] T0201.108

[GRAPHIC] [TIFF OMITTED] T0201.109

[GRAPHIC] [TIFF OMITTED] T0201.110

                                 <all>

</pre></body></html>
